App. 1
The Supreme Court of the State of Colorado
2 East 14th Avenue • Denver, Colorado 80203
2020 CO 8
Supreme Court Case No. 17SC815
Certiorari to the Colorado Court of Appeals
Court of Appeals Case No. 13CA1296
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Petitioner:
Alfredo Juarez,
v.
Respondent:
The People of the State of Colorado.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Judgment Affirmed
en banc
February 10, 2020
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Attorneys for Petitioner:
Megan A. Ring, Public Defender
John Plimpton, Deputy Public Defender
Denver, Colorado
Attorneys for Respondent:
Philip J. Weiser, Attorney General
Carmen Moraleda, Senior Assistant Attorney General
Denver, Colorado
CHIEF JUSTICE COATS delivered the Opinion of
the Court.

App. 2
JUSTICE GABRIEL concurs in the judgment, and
JUSTICE MÁRQUEZ joins in the concurrence in the
judgment.
Juarez petitioned for review of the court of appeals’ judgment affirming the denial of his motion for
postconviction relief. With regard to his challenge to
the effectiveness of his counsel, the district court found
both that defense counsel adequately advised his client
concerning the immigration consequences of his plea
of guilty to misdemeanor drug possession and that, in
any event, there was no reasonable probability Juarez
would not have taken the plea. The intermediate appellate court similarly found that counsel’s advice fell
within the range of competence demanded of attorneys
in criminal cases, but as a result of that finding, the
appellate court considered it unnecessary to address
the question whether counsel’s performance prejudiced Juarez.
Because Juarez conceded he was advised and understood that the misdemeanor offense to which he
pleaded guilty would make him “deportable,” defense
counsel’s advice concerning the immigration consequences of his plea correctly informed him of the controlling law and therefore did not fall below the
objective standard of reasonableness required for effective assistance concerning immigration advice. The
judgment of the court of appeals is therefore affirmed.

App. 3
I.
In April 2012, Alfredo Juarez pleaded guilty to one
class 1 misdemeanor count of possessing a schedule V
controlled substance, in exchange for the dismissal of
a charge of felony possession. As stipulated in the plea
agreement, he received a sentence to two years of drug
court probation. At the time of his offense and plea, the
defendant was a citizen of Mexico and a lawful permanent resident of the United States.
A month after his sentencing, the defendant violated the conditions of his probation, received a suspended two-day jail sentence, and two weeks later,
after violating the conditions of that suspension,
served those two days in jail. After he received an additional three-day jail sentence for again violating his
probation, federal Immigration Customs and Enforcement (“ICE”) officers began removal proceedings. The
defendant was eventually deported to Mexico.
In October 2012 and January 2013, the defendant
filed motions for postconviction relief, challenging the
effectiveness of his plea counsel’s representation and,
as a result, the constitutional validity of his guilty plea.
Over a period of three days, the district court heard
these motions, including the testimony of the defendant, taken by video over the internet; the testimony of
his plea counsel; and the testimony of an immigration
attorney retained by him in 2011, prior to his acceptance of the plea agreement. Following that hearing, the court made findings and conclusions and

App. 4
denied the motions. The hearing revealed the following
pertinent facts.
The defendant was charged with a felony following
the discovery of cocaine on his person. After nearly a
year of continuances, granted for the specific purpose
of allowing him to address potential immigration issues prior to accepting any plea agreement, the defendant finally agreed to plead guilty to class 1
misdemeanor possession of a controlled substance in
exchange for the dismissal of his felony charge. Prior
to the court’s acceptance of the plea, defense counsel
made a record that he had spoken to two immigration
attorneys, advised the defendant to contact an immigration attorney himself after providing him with several names, and clearly informed the defendant that
the misdemeanor offered by the prosecution was the
equivalent of a felony under federal immigration law.
At the postconviction hearing, defense counsel
further testified that on a call with him and the defendant, an immigration attorney explained that the plea
offer was not acceptable because it would likely get
him deported, and that the immigration attorney followed up the call with a letter, reiterating that the proposed plea would probably result in deportation.
Counsel further testified that he consulted another immigration attorney who gave largely the same advice,
and that he communicated this response to the defendant, who understood that deportation was the probable
outcome of accepting the plea.

App. 5
The defendant himself also testified that in the
process of renewing his lawful permanent resident
status, his own immigration counsel had informed him
that the plea could make him deportable. The defendant further testified that he spoke to a second immigration attorney, who also informed him that the plea
“would” make him deportable. The defendant specifically conceded that although no one told him that accepting the agreement and pleading guilty would
“automatically” make him deportable or that he actually “was going to get deported,” nevertheless he understood that pleading guilty to the misdemeanor
“would” make him “deportable.”
The district court reasoned that any distinction
between being automatically or mandatorily deportable and simply being deportable was illusory and in
fact that being so advised would have created a misleading impression of the probability of deportation.
Similarly, it found that the defendant regretted his
plea only after he violated his probation and was deported and therefore there was no merit in his assertion that had he been told he would “automatically” be
deported he would not have accepted the plea agreement. After agreeing that the defendant was adequately advised, the court of appeals found it
unnecessary to opine concerning the likelihood that
but for inadequate advice, the defendant would have
rejected the plea offer.

App. 6
II.
For the waiver of fundamental rights inherent in
any guilty plea to be effective, a pleading defendant
must understand, among other things, the direct consequences of his plea. Brady v. United States, 397 U.S.
742, 755 (1970) (for a guilty plea to be voluntary it
must, among other things, be entered by one “fully
aware of the direct consequences”); People v. Birdsong,
958 P.2d 1124, 1128 (Colo. 1998) (“[T]he trial court
must advise the defendant of the direct consequences
of the conviction to satisfy the due process concerns
that a plea be made knowingly and with a full understanding of the consequences thereof.”). In addition, before pleading guilty to a crime, a defendant is entitled
to advice from his counsel that falls within the range
of competence demanded of attorneys in criminal
cases. Hill v. Lockhart, 474 U.S. 52, 58 (1985) (holding
that two-part test from Strickland v. Washington, 466
U.S. 668 (1984), applies to challenges to guilty pleas
based on ineffective assistance of counsel). Although it
appears well settled that a trial court is not required
to advise a defendant sua sponte of potential federal
deportation consequences, People v. Pozo, 746 P.2d 523,
526 (Colo. 1987), defense counsel’s obligations and the
adequacy of his advice concerning the deportation consequences of his client’s acceptance of a guilty plea
have long been the subject of debate in both state and
federal law, compare People v. Soriano, 240 Cal. Rptr.
328, 333–36 (Cal. Ct. App. 1987) (determining that
the defendant was denied effective assistance of counsel because he was not adequately advised of the

App. 7
immigration consequences of his plea), and People v.
Pozo, 712 P.2d 1044, 1047 (Colo. App. 1985) (determining that the defendant was denied effective assistance
where defense attorney did not research and advise
the defendant with respect to deportation consequences of guilty plea), rev’d, 746 P.2d 523 (Colo. 1987),
and People v. Padilla, 502 N.E.2d 1182, 1186 (Ill. App.
Ct. 1986) (determining that failure to advise of deportation consequences constitutes ineffective assistance
of counsel), with Tafoya v. State, 500 P.2d 247, 252
(Alaska 1972) (concluding that alien defendant received effective assistance of counsel despite counsel’s
failure to advise of deportation consequences), and
State v. Ginebra, 511 So. 2d 960, 962 (Fla. 1987) (determining that counsel’s failure to advise client of deportation consequence does not constitute ineffective
assistance of counsel), superseded by rule as stated in
State v. De Abreu, 613 So. 2d 453, 453 (Fla. 1993).
More than thirty years ago, in Pozo, this court addressed a challenge to the effectiveness of counsel for
failing to advise of possible deportation consequences,
but unlike the intermediate appellate court considering the question before us, we expressly declined to determine whether any such duty existed. 746 P.2d at
527. Instead, relying heavily on then-existing federal
law that permitted a sentencing court to prevent deportation by recommending against it, we found that
the potential deportation consequences of guilty pleas
in criminal proceedings brought against alien defendants were material to critical phases of such proceedings. Id. at 528–29. Rather than imposing a duty on

App. 8
counsel to advise specifically of deportation consequences, we relied on the more fundamental principle
that attorneys must inform themselves of material legal principles that may significantly impact the particular circumstances of their clients. Id. at 529–30. In
the absence of an existing adequate record, we therefore remanded for a determination whether defense
counsel had reason to know of Pozo’s alien status but
nevertheless failed to conduct appropriate research
into federal immigration law. Id.
Nearly a quarter century later, emphasizing that
the “judicial recommendation against deportation,” or
“JRAD,” and the Attorney General’s authority to grant
discretionary relief from deportation had both been
eliminated from federal immigration law, the United
States Supreme Court characterized that law as now
making removal “nearly an automatic result” and deportation as now constituting an integral part of the
penalty that may be imposed on noncitizen defendants
who plead guilty to specified crimes. Padilla v. Kentucky, 559 U.S. 356, 363–64, 366 (2010). Expressly finding the collateral versus direct distinction ill-suited to
evaluating a Strickland claim concerning the specific
risk of deportation, and noting that in any event the
Supreme Court had never applied the distinction between direct and collateral consequences to define the
scope of constitutionally reasonable professional assistance of counsel, the Court concluded simply that advice regarding the unique consequence of deportation
is not categorically removed from the ambit of the
Sixth Amendment right to counsel. Id. at 365–66.

App. 9
After considering various sources of professional
responsibility, the Court ultimately articulated counsel’s
duty with regard to the first, or objective-standard-ofreasonableness, prong of the Strickland test in the context of this unique kind of penalty, holding “that counsel must inform her client whether his plea carries a
risk of deportation.” Id. at 374. Acknowledging that
immigration law can be complex and that there will
undoubtedly be cases in which the deportation consequences of a particular plea will be unclear or uncertain, the Court held that when “the law is not succinct
and straightforward,” a defense attorney need do no
more than advise a noncitizen client that pending
criminal charges may carry a risk of adverse immigration consequences. Id. at 369. On the other hand, when
the deportation consequence is truly clear, the duty to
give correct advice is equally clear. Id. In Padilla itself,
where federal law classified the defendant’s particular
crime as “deportable,” the Court considered “the terms
of the relevant immigration statute [to be] succinct,
clear, and explicit in defining the removal consequence
for Padilla’s conviction.” Id. at 368.
III.
Whether or not our rationale in Pozo retains any
force after the elimination of judicial discretion as a
means of affecting deportation, there can be little question that counsel in the instant case went to substantial lengths to educate himself and ensure that his
client was fully informed of the immigration consequences of taking the plea in question. The defendant’s

App. 10
counsel not only secured a number of continuances for
the very purpose of ensuring that his client was advised of and understood these consequences, but he
also had the defendant advised by an immigration attorney in his presence, and he personally advised the
defendant to seek further consultation with an immigration specialist, after providing the defendant with a
list of such specialists.
From the record of the providency hearing, as well
as the testimony of defense counsel, the testimony of a
separate immigration attorney who advised him, and
his own admissions, it was undisputed that the defendant was advised and understood that the misdemeanor drug offense offered by the prosecution would
be treated as a felony conviction for purposes of federal
immigration law; that he could not afford to take the
plea if he wanted to avoid deportation; and that by taking the plea agreement he would in fact be made deportable. The defendant has never asserted that he
was affirmatively misinformed that he need not worry
about his immigration status, as was the defendant in
Padilla, 559 U.S. at 359, or that he was not advised that
taking the plea in question would make him deportable, just as would a plea to a felony. He testified only
that he was never advised that his plea would make
him “automatically” deportable or that he actually
“was going to get deported.”
The defendant now asserts that merely being advised that taking the plea in question would make him
deportable according to federal immigration law was
insufficient to satisfy the duty imposed upon defense

App. 11
counsel in Padilla to provide advice regarding the risk
of deportation. Relying on specific terms used by the
Court in criticizing defense counsel’s erroneous advice
in Padilla, the defendant argues instead that adequate
advice required counsel’s use of the terms “automatic
deportation” and “presumptively mandatory deportation,” and that advising him he would probably be deported was in fact misleading.
In articulating its holding (“we now hold”), the
Padilla Court commanded that “counsel must inform
her client whether his plea carries a risk of deportation.” Id. at 374. Drawing a distinction between immigration law that is not succinct and straightforward in
defining the removal consequence and immigration
law that is succinct and straightforward in defining the
removal consequence, the Court imposed a more limited duty of advice on defense counsel with regard to
the former than the latter. See id. at 369. When “the
law” is not succinct and straightforward, counsel’s duty
in this regard is limited to advising a noncitizen client
that pending charges may carry a risk of adverse immigration consequences, but when the deportation
consequence is truly clear, counsel has a duty to give
correct advice. Id.
The “correct advice” that counsel has a duty to give
therefore necessarily refers to a correct explanation of
“the law.” The immigration law at issue here is the very
law that the Supreme Court in Padilla found to be
“truly clear,” for the reason that it specified the deportation consequence for conviction of the crime to
which Padilla was pleading guilty, by one of Padilla’s

App. 12
immigration status. That consequence was that such
an individual would be “deportable.” See 8 U.S.C.
§ 1227(a)(2)(B)(i) (2018) (“Any alien who at any time
after admission has been convicted of a violation of . . .
any law or regulation of a State, the United States, or
a foreign country relating to a controlled substance . . .
other than a single offense involving possession for
one’s own use of 30 grams or less of marijuana, is deportable.” (emphasis added)). The “correct advice” concerning the legal consequence of the defendant’s plea
required in the instant case, just as it was in Padilla,
was that the alien defendant would, in the language of
the statute, be “deportable.” Id.; see also State v.
Sanmartin Prado, 141 A.3d 99, 126, 128 (Md. 2016)
(holding defense counsel provided correct advice under Padilla by informing the defendant that his child
abuse offense is “deportable” because 8 U.S.C.
§ 1227(a)(2)(E)(i) defines it as such). That is precisely
the advice the defendant in the instant case was given.
The term “presumptively mandatory” nowhere appears in the Court’s opinion as a required advisement
or as a description of the “correct advice” required of
clear statutes, but rather in an explanation why the
advice given by Padilla’s counsel was incorrect. See Padilla, 559 U.S. at 368–69. As the Court indicated in its
opinion, it was not hard to find counsel’s advice deficient for three reasons: the consequences of Padilla’s
plea could easily be determined from reading the removal statute, his deportation was presumptively
mandatory, and his counsel’s advice was incorrect. Id.
Similarly, the Court never used the phrases “automatic

App. 13
deportation” or “automatically deportable” in describing a required advisement or “correct advice.” “Subject
to automatic deportation” appears only in an introductory passage of the opinion generally summarizing the
Court’s conclusion that defense counsel’s advice to the
effect that the defendant need not worry about his immigration status was deficient and that the question
whether the defendant would be entitled to relief for
ineffective assistance of counsel would therefore depend upon the second or prejudice prong of the Strickland standard, a matter the Court for procedural
reasons did not propose to address. Id. at 360. The
Court used the phrase “automatically deportable” only
in the portion of its opinion describing historical developments in federal immigration law. Id. at 362.
In fact, the Padilla opinion does not again use the
term “automatic deportation” or suggest in the body of
the analysis any requirement for counsel to predict the
likelihood that the law will actually be enforced and
the defendant will actually be deported. Besides undoubtedly being an accurate prediction, the assessment by the defendant’s counsel, as well as that of the
other immigration specialists advising him, that if he
took the offered plea agreement he would probably be
deported did not in any way detract from or minimize
the “correct advice,” which the defendant also received,
that the legal consequence of his accepting the agreement would be to make him deportable. Quite the contrary, being advised that one would probably be
deported arguably implies that, as a matter of law, he
would at the very least be deportable.

App. 14
Whether such an advisement of probable consequences standing alone, however, could demonstrate
reasonable professional competence; whether, even if
so, prejudice could be established in the face of ignoring such an advisement; or whether even correct advice concerning the legal consequence of such a plea
might nevertheless be deficient in light of other, contradictory advisements, are all questions we need not
answer. In the case before us, it is enough that the defendant was correctly advised concerning both the legal consequence and the practical implications of his
plea.
IV.
Because Juarez conceded he was advised and understood that the misdemeanor offense to which he
pleaded guilty would make him “deportable,” defense
counsel’s advice concerning the immigration consequences of his plea correctly informed him of the controlling law and therefore did not fall below the
objective standard of reasonableness required for effective assistance concerning immigration advice. The
judgment of the court of appeals is therefore affirmed.

App. 15
JUSTICE GABRIEL concurs in the judgment, and
JUSTICE MÁRQUEZ joins in the concurrence in the
judgment.
JUSTICE GABRIEL, concurring in the judgment.
The majority concludes that plea counsel’s advice
to defendant Alfredo Juarez regarding the immigration consequences of Juarez’s guilty plea to a class 1
misdemeanor drug possession count was correct and
did not fall below the objective standard of reasonableness required for effective assistance concerning immigration advice. Maj. op. ¶ 22. In my view, however,
counsel’s advice was deficient under the standards set
forth in Padilla v. Kentucky, 559 U.S. 356, 369 (2010),
and People v. Pozo, 746 P.2d 523, 529 (Colo. 1987), because it did not correctly convey the clear statutory deportation consequences of Juarez’s guilty plea.
Nonetheless, like the majority, I would affirm the judgment here because the record does not support Juarez’s contention that but for counsel’s deficient advice,
he would not have pleaded guilty and instead would
have proceeded to trial.
Accordingly, I respectfully concur in the judgment
only.
I.

Factual Background

No one disputes that under the applicable immigration statutes, Juarez’s guilty plea in this case rendered him automatically deportable. See Padilla, 559
U.S. at 363–64, 366 (noting that under contemporary

App. 16
law, if a noncitizen commits a removable offense, then
his or her removal is “practically inevitable” and that
“recent changes in our immigration law have made removal nearly an automatic result for a broad class of
noncitizen offenders”); United States v. Yansane, 370
F. Supp. 3d 580, 586 (D. Md. 2019) (construing the immigration provision at issue here as “automatically”
rendering deportable defendants who are convicted of
any federal law or regulation relating to controlled
substances).1 Indeed, the majority itself acknowledges
the Supreme Court’s view that, under prevailing immigration law, removal is now “nearly an automatic result” for noncitizen offenders like Juarez, although the
majority goes to some length to try to minimize the import of the Court’s statement in that regard. Maj. op.
¶¶ 12, 19 (citing Padilla, 559 U.S. at 366).
Plea counsel, however, did not advise Juarez of
this applicable law. To the contrary, counsel appears to
have advised Juarez only that (1) his plea “could make
[him] deportable”; (2) if he took the plea offer, he would
probably be deported; or (3) if he took the plea offer, it
“very likely [would] result in either deportation or some
type of exclusion from the United States.” (Emphases
added.) In addition, when, prior to accepting the plea
offer, Juarez expressed his belief that a felony might
be viewed by immigration authorities as worse than
a misdemeanor, counsel did not correct Juarez’s
1

Although current law has changed the terminology from
“deportation” to “removal,” because counsel in this case advised
Juarez in terms of “deportation,” to avoid confusion, I, too, will
generally use that term.

App. 17
misimpression, even though counsel knew that, from
an immigration standpoint, Juarez’s plea to the misdemeanor would put him in the same position as if he
had been convicted of a felony. Instead, counsel told
Juarez, “[T]here’s a possibility over the next several
years that maybe the law might change, and if you’re
looking at a misdemeanor versus a felony, might that
somehow benefit you [sic].”
The matter proceeded to the providency hearing,
and when the court asked Juarez if he understood that
his plea could affect his immigration status, Juarez replied, “Yeah,” but indicated that he was willing to proceed because there was nothing else that he could do.
Specifically, Juarez made clear that he understood that
his counsel had tried to get a plea deal that would have
avoided the possibility of deportation but that the prosecutor would not make such an offer. Juarez thus told
the court, “[W]e got to go with what . . . we can do now,”
and although an immigration lawyer had told Juarez
that the plea offer was unacceptable, Juarez pleaded
guilty.
II.

Analysis

I begin by discussing the standards set forth in
Padilla and Pozo. I then address why I believe that
plea counsel’s advice in this case was deficient. Last, I
turn to the question of prejudice, and I explain why I
do not believe that counsel’s deficient advice prejudiced
Juarez on the facts presented here.

App. 18
A.

Padilla and Pozo

Addressing counsel’s obligations in a case like this,
in Padilla, 559 U.S. at 368–69, the Supreme Court concluded that when “the terms of the relevant immigration statute are succinct, clear, and explicit in defining
the removal consequence for [the defendant’s] conviction,” counsel must give “correct advice.” In contrast,
when the law is not succinct and straightforward, “a
criminal defense attorney need do no more than advise
a noncitizen client that pending criminal charges may
carry a risk of adverse immigration consequences.” Id.
at 369.
In so concluding, the Supreme Court reached the
same conclusion that we had reached some twentythree years earlier in Pozo, 746 P.2d at 529–30. See
People v. Hinojos, 2019 CO 60, ¶ 28, 444 P.3d 755, 76162 (citing Pozo immediately after describing defense
counsel’s obligations under Padilla); People v. ChavezTorres, 2019 CO 59, ¶ 26, 442 P.3d 843, 850 (same);
Kazadi v. People, 2012 CO 73, ¶ 31, 291 P.3d 16, 25
(Bender, C.J., dissenting) (equating the obligations of
defense counsel set forth in Pozo, 746 P.2d at 529, with
those set forth in Padilla, 559 U.S. at 374).
Specifically, in Pozo, 746 P.2d at 529, we made clear
that attorneys practicing in Colorado who knew or had
sufficient information to form a reasonable belief that
their client was a noncitizen had a duty to “investigate
relevant immigration law.” This duty, we said, stems
“from the . . . fundamental principle that attorneys
must inform themselves of material legal principles

App. 19
that may significantly impact the particular circumstances of their clients.” Id. Moreover, we noted that in
cases involving noncitizen criminal defendants, “thorough knowledge of fundamental principles of deportation law may have significant impact on a client’s
decisions concerning plea negotiations and defense
strategies.” Id. Accordingly, we remanded the case to
determine, in light of the foregoing principles, whether
counsel’s failure to advise Pozo of the immigration consequences of his plea constituted constitutionally ineffective assistance of counsel. Id. at 529–30.
B.

Deficient Conduct

Applying the foregoing principles here, I believe
that plea counsel’s conduct fell below the constitutionally mandated standards set forth in Padilla and Pozo.
As noted above, in Padilla, 559 U.S. at 368–69, the
Supreme Court concluded that when “the terms of the
relevant immigration statute are succinct, clear, and
explicit in defining the removal consequence for [the
defendant’s] conviction,” counsel must give “correct advice.” Here, as in Padilla, the consequences of Juarez’s
plea could “easily be determined from reading the removal statute.” Id. at 369. Specifically, pursuant to applicable law, his plea made him automatically
deportable, such that his deportation was, in the words
of the Padilla Court, “practically inevitable.” See id. at
363–64, 366; Yansane, 370 F. Supp. 3d at 586.
Counsel, however, did not advise Juarez of this applicable law. Instead, he told Juarez only that (1) his

App. 20
plea “could make [him] deportable”; (2) if he took the
plea offer, he would probably be deported; or (3) if he
took the plea offer, it “very likely [would] result in either deportation or some type of exclusion from the
United States.” (Emphases added.) Moreover, when
Juarez expressed his belief that a felony might be
viewed by immigration authorities as worse than a
misdemeanor, counsel did not correct Juarez’s misimpression, even though counsel knew that, from an
immigration standpoint, Juarez’s plea to the misdemeanor would put him in the same position as if he
had been convicted of a felony. Instead, counsel gave
Juarez false hope that the law might change and that
a misdemeanor might be more beneficial than a felony.
In my view, this was not the “correct advice” that
Padilla and Pozo required plea counsel to provide. As
the majority correctly observes, those cases require
plea counsel to advise their clients correctly as to what
the law is. Maj. op. ¶ 18. Juarez’s counsel, however, did
not so advise Juarez. Rather, he told Juarez, as a factual matter, what he thought the likely outcome of
Juarez’s plea would be. I do not believe that this was
sufficient under Padilla and Pozo.
Nor do I agree with the majority’s apparent view
that advising a defendant that deportation is “probable” or “likely” is the same thing as advising the defendant what the law is (here, that Juarez’s plea
rendered him automatically deportable). Telling a defendant that deportation is probable or likely does not
tell him or her what the law is. It provides, instead, a
factual prediction as to the plea’s likely outcome.

App. 21
Moreover, advising a defendant that deportation is
“probable” or “likely” tends to convey at least some possibility that deportation might not occur. In my view,
giving a defendant in a case like this such a false sense
of hope is contrary to what Padilla and Pozo require
because misadvising a defendant in this way interferes
with his or her ability to make the voluntary, intelligent, and knowing waiver of rights that must accompany a guilty plea.
In contrast to advising a defendant that deportation is “probable” or “likely,” advising defendants in
cases like this that their pleas render them automatically deportable provides the defendants with the correct statement of the law that Padilla and Pozo
mandate. And so advising a client does not tend to convey false hope. Indeed, if anything, it tends to suggest
a general lack of discretion under the law.
For these reasons, I would conclude that plea
counsel’s advice in this case was deficient. In my view,
counsel’s advice understated the consequences of
Juarez’s guilty plea, and in endorsing such deficient
advice, I believe that the majority’s opinion substantially weakens the important safeguards that both
Padilla and Pozo have provided to noncitizen defendants who are considering entering guilty pleas.
C.

Prejudice

The question for me thus becomes whether plea
counsel’s deficient advice prejudiced Juarez. On the
facts of this case, I cannot say that it did.

App. 22
In the plea context, to establish the requisite prejudice, a defendant must show a reasonable probability
that but for counsel’s errors, the defendant would not
have pleaded guilty but instead would have insisted on
going to trial. Hill v. Lockhart, 474 U.S. 52, 59 (1985).
Here, the record establishes that in deciding
whether to accept the plea offer, Juarez was principally
focused on the offer’s deportation consequences. The
record further shows that Juarez knew that his counsel had tried to get a plea offer that would have avoided
the possibility of deportation but that the prosecutor
would not make such an offer. And the record reveals
that Juarez knew that if he accepted the misdemeanor
offer that was on the table, then he would probably be
deported. Notwithstanding all of the foregoing, and
although an immigration attorney had told him that
the plea offer was unacceptable, Juarez chose to accept
that offer, telling the providency court, “[W]e got to go
with what . . . we can do now.”
On these facts, I cannot say that but for plea counsel’s deficient conduct, Juarez would probably have rejected the plea offer and would instead have proceeded
to trial. Although plea counsel did not properly advise
Juarez as to the applicable law, as a factual matter,
Juarez knew that his deportation was probable or
likely if he pleaded guilty to a misdemeanor, and
against immigration counsel’s advice, he pleaded
guilty anyway. In such circumstances, I do not believe
that the record supports a finding that Juarez would
have acted differently had he been told that his plea

App. 23
rendered him automatically deportable, such that his
removal was practically inevitable.
Accordingly, I would conclude that Juarez has not
established the requisite prejudice in this case.
III.

Conclusion

For these reasons, although I believe that plea
counsel provided deficient advice regarding the immigration consequences of Juarez’s guilty plea, I do not
believe that Juarez has shown that he suffered any
prejudice from that deficient advice.
Accordingly, like the majority, I would affirm the
judgment below, but I would do so on different grounds.
I therefore respectfully concur in the judgment only.
I am authorized to state that JUSTICE MÁRQUEZ joins in this concurrence in the judgment.

App. 24
COLORADO COURT OF APPEALS

2017COA127

Court of Appeals No. 13CA1296
City and County of Denver District Court
No. 11CR1007
Honorable John W. Madden IV, Judge
The People of the State of Colorado,
Plaintiff-Appellee,
v.
Alfredo Juarez,
Defendant-Appellant.
ORDER AFFIRMED
Division IV
Opinion by JUDGE GRAHAM
Booras and Dunn, JJ., concur
Announced October 19, 2017
Cynthia H. Coffman, Attorney General, Carmen Moraleda,
Assistant Attorney General, Denver, Colorado, for
Plaintiff-Appellee
Douglas K. Wilson, Colorado State Public Defender,
John Plimpton, Deputy State Public Defender, Denver,
Colorado; Rachel C. Funez, New Castle, Colorado, for
Defendant-Appellant

App. 25
Defendant, Alfredo Juarez, appeals the postconviction court’s order denying his Crim. P. 35(c) motion
seeking to withdraw his guilty plea. We conclude that
Juarez’s plea counsel was not ineffective when he advised Juarez that his plea to a class 1 misdemeanor
would “probably result in deportation,” and, therefore,
we conclude Juarez is not entitled to withdraw his
guilty plea. Accordingly, we affirm.
I.

Background

Juarez is a Mexican foreign national who has lived
in Denver since he was approximately six years old.
After graduating from high school, he married a
United States citizen, and in 2009 he was granted lawful permanent residence status. His parents live in
Denver, he has two children who are United States citizens, and he has not returned to Mexico at any time
prior to his deportation at issue in this case.
In early 2011, the police were called to Juarez’s
residence after he got into a fight with family members. Officers were forced to tase Juarez to subdue him
and, in a search incident to arrest, cocaine was found
in his possession. Juarez was charged with one felony
count of possession of a controlled substance and hired
Mr. Tatum to represent him. At the same time, Mr.
Whitehead, an immigration attorney, was also representing Juarez in an unrelated matter concerning his
lawful permanent residence status.
Tatum received multiple continuances in the criminal case in an attempt to negotiate a plea with the

App. 26
district attorney that would not result in Juarez’s deportation from the United States. Tatum understood
that there was no option short of a misdemeanor for
less than one ounce of marijuana that would guarantee
avoidance of deportation. Ultimately, Juarez pleaded
guilty to possession of a schedule V controlled substance, a class 1 misdemeanor, with a stipulated sentence of two years of drug court probation.
During Juarez’s April 2012 providency hearing,
Tatum informed the court as follows:
The reason this case has . . . dragged on for a
long time is because [co-counsel] and I have
spent a lot of time trying to figure out if there
was . . . a disposition that would be . . . better
for him, immigration-wise.
....
Unfortunately . . . that never occurred. We
have . . . at all times advised him that it is our
understanding – although we’re not – I’m not
an expert in immigration law, but based on my
consultation with immigration attorneys –
that this plea very likely will result in either
deportation or some type of exclusion from the
United States.
He is a legal resident. He does have a green
card. But it’s fairly well known now that any
drug offense other than simple possession of

App. 27
under an ounce of marijuana will have negative immigration consequences.1
....
I – I cannot tell him any stronger. You know,
this is a misdemeanor under Colorado state
law, but it is the equivalent of a felony under
the immigration and naturalization act, and,
you know, I have made him aware of that. . . .
(Emphasis added.)
The court then asked Juarez if he understood “that
this plea could . . . affect your immigration status. Do
you understand that?”
[Juarez]: Yeah.
The Court: Okay. And even knowing that, do
you want to proceed with this disposition today?
[Juarez]: (Indistinguishable.) There’s nothing I can do, you know. It was – I don’t know.
This whole case just was something that
should have . . . never really happened, you
know. It was all due to my dumb behavior, but,
you know, we tried to make it work, but we
can’t get it to what we have to, so we got to go
with what . . . we can do now.
....
The Court: Mr. Juarez, understanding all
the consequences, both the immigration
1

In response to this comment by Tatum, the court stated,
“Or it could.” (Emphasis added.)

App. 28
consequences, the potential that if you violate
probation I could sentence you pursuant to
what I told you . . . do you still want to . . . take
this plea today?
[Juarez]: Yeah.
(Emphasis added.)
The court sentenced Juarez to two years of drug
court probation as recommended in his plea agreement.
In May 2012, Juarez tested positive for THC, and
the drug court imposed a suspended two-day jail sentence on the condition his THC levels drop. Because his
THC levels did not drop, the drug court imposed the
two-day jail sentence in early June. When Juarez again
failed to lower his THC levels in late June, the court
imposed a three-day sentence. During this second period of incarceration, United States Immigration and
Customs Enforcement (ICE) placed a hold on Juarez
and began deportation proceedings. An order of removal was entered by the immigration court on September 5, 2012, and Juarez was ultimately deported to
Mexico.
In October 2012 and January 2013, Juarez filed
motions for postconviction relief alleging ineffective
assistance of counsel. Juarez argued Tatum failed to
advise him that his guilty plea would subject him to
(1) mandatory deportation; (2) lifetime inadmissibility
to the United States; (3) mandatory detention; and (4)
destruction of the defense of cancellation of removal.
But for these errors, Juarez alleged, he would not have

App. 29
pleaded guilty and instead would have risked going to
trial.
The postconviction court held a hearing over three
days in which Tatum, Juarez (via internet connection
from Mexico), and Whitehead testified. The testimony
of each is summarized below:

2

•

Tatum stated that “immigration was always,
I think, the paramount consideration” for
Juarez; that he “was aware that the plea
agreement proposed by the District Attorney
was not acceptable because it would likely get
Mr. Juarez deported”; and that “I specifically
asked Mr. Juarez if he wanted to take the
Class 1 misdemeanor deal that had been offered, and I told him, ‘Your immigration attorney advised you that a plea to the Class 1
misdemeanor will probably result in deportation.’ ”

•

Juarez testified Tatum and Whitehead told
him the plea would make him deportable,2 but
“[t]hey never said you are going to get deported. They never said you are going to get
deported as soon as you are free. You are going
to get deported, they never said that.” Juarez
also testified his attorneys never explained
that “the misdemeanor plea carried absolutely no benefit over the felony” for immigration purposes; that he “could be subject to
mandatory lifetime inadmissibility”; that he

Defendant testified, “I know I was pleading guilty to a misdemeanor that would make me deportable according to the information that my lawyer gave me and according to what he knew.”

App. 30
could be subject to “mandatory immigration
detention”; or that his plea would “destroy[ ] a
defense to deportation.”
•

Whitehead stated that his general practice at
the time was to inform his clients “you are going to probably be placed in removal proceedings or you are going to be facing a permanent
bar [ ]to admissibility into the country.” He
also stated, “What I remember telling Mr.
Juarez . . . was that if he pled guilty to the
drug offense that was being offered to him at
the time . . . that he would, 1, probably be
placed in remov[al] proceedings and, 2, . . .
probably be facing a permanent bar.”

After listening to arguments and reviewing the
case law on effective assistance to noncitizen defendants, the postconviction court denied Juarez’s motion
in a written order. The court held:
[I]n Padilla v. Kentucky, 559 U.S. 356, 130
S. Ct. 1473 (2010), . . . the United States Supreme Court found that, under the present
immigration laws, deportation is an integral
part of the penalty that may be imposed on
noncitizen defendants who plead guilty to
certain crimes. In doing so, it noted that deportation is a particularly severe penalty,
even though it is not technically a criminal
sanction. . . . Accordingly, the United States
Supreme Court held that, under the Sixth
Amendment’s guarantee of effective representation, “counsel must inform her client
whether his plea carries a risk of deportation.”
Id., 130 S. Ct. at 1486 (emphasis added). The

App. 31
Supreme Court used this precise language –
“risk of deportation” – multiple times in
Padilla.
....
The Defendant was advised and was aware
that his plea carried a risk of deportation.
Further, the risk of deportation was correctly
quantified as being very likely. As such, the
Court finds that the Defendant has not established either prong of the Strickland test and
that his attorney did not provide ineffective
assistance of counsel.
The Defendant’s attorney, Mr. Tatum, knew
early on that the Defendant was a legal resident of this country but was not a citizen. Accordingly, he had an obligation to investigate
whether the plea offer made to the Defendant
would make the Defendant eligible for deportation. He did this by consulting with an experienced immigration attorney, Lillian Shea,
as well as the Defendant’s own immigration
attorney, Mr. Whitehead. As a result of those
consultations, he had a correct understanding
that, if the Defendant accepted the plea bargain in this case, he would likely be deported.
More importantly in this case, Mr. Tatum also
advised the Defendant of this fact. Pursuant
to Padilla, Mr. Tatum’s obligation was to advise the Defendant “whether his plea carrie[d]
a risk of deportation,” Padilla, 130 S. Ct. at
1486, and Mr. Tatum met this obligation.
The court went on to state that Juarez’s argument
that the advice he received was ineffective because

App. 32
Tatum did not tell him his guilty plea would trigger
“the automatic, mandatory and permanent removal
provision of deportability” was “an illusory distinction”
“contrary to the specific language in Padilla.” As the
court noted, “[t]he only thing the additional language
does is create a misleading impression of the probability of actual deportation.” Indeed, “whether a person
who is deportable will actually be deported is not absolute, certain or guaranteed.” Thus, by advising Juarez
“that if he took the plea offer in this case he would
likely be deported, Mr. Tatum accurately related the
effect of the plea under 8 U.S.C. § 1227(a) and also provided additional, correct information as to the probability of deportation which was not explicit under the
statute.”
The court further held that the “other purported
deficiencies” raised by Juarez – failure to advise he
would be permanently barred from reentry into the
United States, failure to advise his guilty plea would
destroy a defense to removal called cancellation of removal, and failure to advise his guilty plea would subject him to mandatory immigration detention without
the possibility of bond – do not fall under the ambit of
consequences that defense attorneys are required to
advise their clients of in order to provide effective representation. “Addressing the first of those purported
failures, there is no express requirement in Padilla
that an attorney must advise a defendant whether his
plea will make him inadmissible.” And regarding the
defense of cancellation of removal and mandatory detention,

App. 33
[i]f defense attorneys were required to have
that degree of familiarity with immigration
law, then they would presumably also be required to understand concepts such as withholding of removal, the application of the
Convention Against Torture, and exemption
from inadmissibility for refugees. . . . [T]he
defense position would require an attorney to
advise a defendant of a collateral consequence
to a collateral consequence.
The court also concluded that Juarez failed to establish prejudice because, “[k]nowing that the best offer he could obtain made him eligible for deportation,”
Juarez “accepted that risk and took the plea.” “He had
been advised at least by Mr. Tatum and Mr. Whitehead
that if he took the plea bargain he would very likely be
deported and that he would be permanently barred
from returning to the United States. Knowing these
consequences, the Defendant still chose to plead
guilty.”
Ultimately, the Defendant’s primary desire
was to avoid deportation if he could do so.
When it became clear that the prosecution
would not offer a plea which would avoid that
risk and that he would likely lose at trial, he
chose what he perceived to be his next best
option – avoiding a felony conviction. The decision was a rational one under the circumstances. . . . [I]t strongly appears that the
Defendant’s decision was motivated by the
hope that he might not actually be deported
even though he knew this outcome was very
likely.

App. 34
II.

Counsel’s Representation Did Not Fall Below
an Objective Standard of Reasonableness

On appeal, Juarez first argues that under Padilla,
Tatum performed deficiently by failing to inform him
that he would be subject to “mandatory deportation” if
convicted. Thus, although counsel did inform him that
he was “very likely” to be deported, Juarez argues that
this advice was deficient because counsel should have
told him that his conviction “would absolutely result
in deportation” under 8 U.S.C. § 1227(a)(2)(B)(i) (2012).
We disagree and conclude that plea counsel acted
within Padilla’s objective standard of reasonableness.
To the extent our holding conflicts with the division
in People v. Campos-Corona, 2013 COA 23, we decline
to follow that opinion as an untenable expansion of
Padilla. See People v. Delgado, 2016 COA 174, ¶ 27, 410
P.3d 697 (one division of the court of appeals is not
bound by the decision of another division in a different
case).
A.

Standard of Review

An appeal from an order denying a claim of ineffective assistance of plea counsel presents a mixed
question of law and fact. We defer to the postconviction
court’s findings of fact if supported by the record, and
we review the conclusions of law de novo. People v.
Stovall, 2012 COA 7, ¶ 18.

App. 35
B.

Law

“The Sixth Amendment guarantees a defendant
the effective assistance of counsel at ‘critical stages of
a criminal proceeding,’ including when he enters a
guilty plea.” Lee v. United States, 582 U.S. ___, ___, 137
S. Ct. 1958, 1964 (2017) (quoting Lafler v. Cooper, 566
U.S. 156, 165 (2012)). In Strickland v. Washington, 466
U.S. 668 (1984), the Supreme Court set forth a twopronged test to determine whether a criminal defendant is entitled to relief as a result of constitutionally
deficient representation. “To demonstrate that counsel
was constitutionally ineffective, a defendant must
show that counsel’s representation ‘fell below an objective standard of reasonableness’ and that he was prejudiced as a result.” Lee, 582 U.S. at ___, 137 S. Ct. at
1964 (quoting Strickland, 466 U.S. at 688, 692).
A defense attorney must advise a noncitizen defendant about potential immigration consequences to
his or her plea:
When the law is not succinct and straightforward . . . a criminal defense attorney need do
no more than advise a noncitizen client that
pending criminal charges may carry a risk of
adverse immigration consequences. But when
the deportation consequence is truly clear . . .
the duty to give correct advice is equally clear.
Padilla, 559 U.S. at 369 (footnote omitted). Under 8
U.S.C. § 1227(a)(2)(B)(i), “[a]ny alien who at any time
after admission has been convicted of a violation of . . .
any law or regulation of a State . . . relating to a

App. 36
controlled substance . . . , other than a single offense
involving possession for one’s own use of 30 grams or
less of marijuana, is deportable.”
“The severity of deportation – ‘the equivalent of
banishment or exile,’ Delgadillo v. Carmichael, 332
U.S. 388, 390-91, 68 S. Ct. 10, 92 L. Ed. 17 (1947) – only
underscores how critical it is for counsel to inform her
noncitizen client that he faces a risk of deportation.”
Padilla, 559 U.S. at 373-74. Therefore, “the Sixth
Amendment requires an attorney for a criminal defendant to provide advice about the risk of deportation
arising from a guilty plea.” Chaidez v. United States,
568 U.S. 342, 344 (2013).
C.

Analysis

We read Padilla’s requirement that a defense attorney give “correct advice,” Padilla, 559 U.S. at 369,
as a requirement to give advice that informs his or her
client “about the risk of deportation arising from a
guilty plea.” This advice need not be unequivocal, and
it does not require counsel to tell a defendant that his
plea will subject him to “mandatory removal,” “presumptively mandatory deportation,” or “automatic or
mandatory deportation.” We reach this conclusion because, although a noncitizen defendant is deportable
for a controlled substance conviction under 8 U.S.C.
§ 1227(a)(2)(B)(i), deportation is not guaranteed. See
State v. Shata, 868 N.W.2d 93, 108 (Wis. 2015) (“Although a controlled substance conviction makes an

App. 37
alien ‘deportable,’ 8 U.S.C. § 1227(a)(2)(B)(i), such a
conviction will not necessarily result in deportation.”).
As noted by Whitehead at the postconviction hearing:
[In] my 40 years of [practicing] immigration
[law] I learned there is nothing absolutely . . .
certain or guaranteed with the immigration
service. And just because a person may be
mandator[ily] subject to it doesn’t necessarily
mean they will automatically be placed in proceedings.
ICE takes a look at a case – on a case by case
basis as do the trial attorneys with the government. And just because the statute calls
for something doesn’t necessarily mean they’ll
automatically do it. There is a likelihood they
will do it. But if you are telling somebody
there is a guarantee something is going to
happen within the immigration confines it
may not happen.
Indeed, “the executive branch has essentially unreviewable prosecutorial discretion with respect to commencing deportation proceedings, adjudicating cases,
and executing removal orders.” Id. (citing Reno v.
Am.-Arab Anti-Discrimination Comm., 525 U.S. 471,
482-85 (1999)).
Tatum not only advised Juarez of the risk of deportation, he quantified it by stating that it was

App. 38
“probable”3 and that drug offenses “will have” negative
consequences. Indeed, Juarez understood these warnings to mean that “[t]here [was] nothing [he] c[ould] do”
because he could not get a plea deal “to what [I] have
to.”
In addition, removal proceedings for Juarez began
only after he thrice violated the terms of his drug court
probation. Once he was confined in county jail for violating his probation, ICE placed a hold on him and began removal proceedings. This raises the question of
whether such a proceeding would have been initiated
had Juarez not violated his probation, resulting in his
incarceration. When viewed in this context, Tatum’s
advice to Juarez correctly conveyed that the risk of
deportation was “very likely” and “probable,” and that
his guilty plea would have adverse consequences. See
Commonwealth v. DeJesus, 9 N.E.3d 789, 799 (Mass.
2014) (Cordy, J., dissenting) (“There was no inaccuracy
or soft pedaling of advice here.”); Shata, 868 N.W.2d at
111 (The defendant’s “attorney gave him advice that
there was a ‘strong chance’ of deportation, which was
absolutely correct. Correct advice is not deficient.”).
We acknowledge that a majority of jurisdictions
have interpreted Padilla as requiring counsel to inform a noncitizen defendant that conviction for a deportable offense will either result in deportation or
subject a defendant to “mandatory deportation.”
3

Webster’s Third New International Dictionary 1806 (2002)
defines “probable” as “that almost certainly is or will prove to be
something indicated.”

App. 39
United States v. Al Halabi, 633 F. App’x 801, 803 (2d
Cir. 2015) (“[W]here the law clearly dictates that removal is presumptively mandatory, a defense attorney’s failure to advise his client of that fact falls below
an objective standard of reasonableness.”); United
States v. Rodriguez-Vega, 797 F.3d 781, 786 (9th Cir.
2015) (“[W]here the law is ‘succinct, clear, and explicit’
that the conviction renders removal virtually certain,
counsel must advise his client that removal is a virtual
certainty.” (quoting Padilla, 559 U.S. at 368-69));
United States v. Urias-Marrufo, 744 F.3d 361, 365
(5th Cir. 2014) (“[D]efense counsel has an obligation
under the Sixth Amendment to inform his noncitizen
client ‘that the offense to which he was pleading
guilty would result in his removal from this country.’ ”
(quoting Padilla, 559 U.S. at 360)); United States v.
Akinsade, 686 F.3d 248, 254 (4th Cir. 2012) (“[T]he admonishment did not ‘properly inform’ Akinsade of the
consequence he faced by pleading guilty: mandatory
deportation.”); Budziszewski v. Comm’r of Corr., 142
A.3d 243, 246 (Conn. 2016) (“In circumstances when
federal law mandates deportation and the client is not
eligible for relief under an exception to that command,
counsel must unequivocally convey to the client that
federal law mandates deportation as the consequence
for pleading guilty.”); Hernandez v. State, 124 So. 3d
757, 760, 762 (Fla. 2012) (Where counsel informed
the defendant a plea “could/may” affect his immigration status, “Hernandez’s counsel was deficient under
Padilla for failing to advise Hernandez that his plea
subjected him to presumptively mandatory deportation.”); Encarnacion v. State, 763 S.E.2d 463, 466 (Ga.

App. 40
2014) (“An attorney’s advice as to the likelihood of deportation must be based on realistic probabilities, not
fanciful possibilities. . . . [W]e find that where, as here,
the law is clear that deportation is mandatory and
statutory discretionary relief is unavailable, an attorney has a duty to accurately advise his client of that
fact. It is not enough to say ‘maybe’ when the correct
advice is ‘almost certainly will.’ ”) (citation omitted);
DeJesus, 9 N.E.3d at 794 (“We conclude that advising
a defendant faced with circumstances similar to those
in this case that he is ‘eligible for deportation’ does not
adequately inform such a defendant that, if he were to
plead guilty . . . then, upon apprehension, his removal
from the United States would be presumptively mandatory under Federal law.”); Salazar v. State, 361
S.W.3d 99, 103 (Tex. App. 2011) (“[T]he correct advice,
which was that the plea of guilty would result in certain deportation, was not given. Both the terms ‘likelihood’ and ‘possibility’ leave open the hope that
deportation might not occur. Consequently, these admonishments were inaccurate. . . .”); State v. Sandoval,
249 P.3d 1015, 1019 (Wash. 2011) (“If the applicable
immigration law ‘is truly clear’ that an offense is deportable, the defense attorney must correctly advise
the defendant that pleading guilty to a particular
charge would lead to deportation.” (quoting Padilla,
559 U.S. at 369)); see Campos-Corona, ¶ 13 (“Because
Campos-Corona was not advised of mandatory removal, we conclude that the postconviction court erred
in finding counsel’s performance was reasonable.”).

App. 41
We think that the advice given by Tatum meets
the general spirit of that standard. But if it does not,
we nevertheless see no fault in it. We cannot say that
counsel’s advice must be couched in terms of absolute
certainty or must incorporate talismanic language.
Consequently, we find more persuasive cases in those
jurisdictions that have concluded that because deportation is not automatic after conviction for a deportable
offense, Padilla does not require an attorney to advise
a client that he will, with 100% certainty, be deported.
Chacon v. State, 409 S.W.3d 529, 537 (Mo. Ct. App.
2013) (holding defense counsel’s advice that the defendant would “very likely be deported and wouldn’t be
able to come back” was constitutionally effective assistance); Commonwealth v. Escobar, 70 A.3d 838, 842
(Pa. Super. Ct. 2013) (“We do not read the statute [8
U.S.C. § 1227] or the [Padilla] court’s words as announcing a guarantee that actual deportation proceedings are a certainty such that counsel must advise a
defendant to that effect.”); Neufville v. State, 13 A.3d
607, 614 (R.I. 2011) (“Counsel is not required to inform
their clients that they will be deported, but rather that
a defendant’s ‘plea would make [the defendant] eligible
for deportation.’ ” (quoting Padilla, 559 U.S. at 368))
(alteration in original); Shata, 868 N.W.2d at 109 (“Because deportation is not an absolutely certain consequence of a conviction for a deportable offense, Padilla
does not require an attorney to advise an alien client
that deportation is an absolute certainty upon conviction of a deportable offense, including a controlled
substance offense.”); see DeJesus, 9 N.E.3d at 799-800
(Cordy, J., dissenting) (“[D]eportation has not been

App. 42
demonstrated to be inevitable in the aftermath of
every plea of guilty that creates either ‘eligibility’ or
even a ‘presumption’ of deportation. . . . [T]he deportation proceeding is contingent on there being an ‘order’
of removal from the Attorney General of the United
States, and there still remain discretionary avenues to
avoid deportation, albeit limited ones.”). Instead, we
conclude, taking into account the language counsel actually uses and the circumstances of the noncitizen
client (such as the ability to read and understand English), a criminal defense attorney may provide effective
assistance even when using equivocal terms such as
“likely,” “strong chance,” or “probably.”
The Padilla Court ultimately “[held] that
counsel must inform her client whether his
plea carries a risk of deportation.” Padilla, 559
U.S. at 374, 130 S. Ct. 1473 (emphasis added).
The Court did not hold that an attorney must
inform an alien client that a conviction for a
deportable offense will absolutely result in deportation. The Court did not require an attorney to use any particular words, such as
“inevitable deportation,” or to even convey the
idea of inevitable deportation.
Shata, 868 N.W.2d at 98 (alteration in original).
In Campos-Corona, a division of this court held
that while both counsel and the trial court advised the
defendant “his plea could, or likely would, result in deportation and difficulty re-entering the United States,”
¶ 12, “[b]ecause Campos-Corona was not advised of
mandatory removal,” ¶ 13, the postconviction court

App. 43
erred in finding counsel’s performance reasonable. But
the division summarily reached this conclusion in two
paragraphs with little discussion or analysis of Padilla
and the concomitant case law. In any event, had the
division considered the above-mentioned case law and
reached the same conclusion, we would respectfully
disagree. Indeed, we would have concluded that counsel’s advice that “a guilty plea would make renewing
[Campos-Corona’s] permanent residence status difficult, if not impossible, and that he would likely be deported,” id. at ¶ 3, was not constitutionally deficient.
The record supports the postconviction court’s
findings that Juarez was correctly advised and fully
understood the risk of his plea prior to pleading guilty.
Given Juarez’s acknowledgment that he knew he could
not reach a plea that would prevent his deportation,
plus the multiple layers of advice he received (including inquiry by the court regarding immigration consequences prior to accepting his guilty plea), we are
satisfied that Tatum provided constitutionally effective representation. As stated by the Wisconsin Supreme Court, “[t]he bottom line is that an attorney’s
advice must be adequate to allow a defendant to knowingly, intelligently, and voluntarily decide whether to
enter a guilty plea.” Shata, 868 N.W.2d at 107. The advice Juarez received from Tatum allowed him to do so.
The fact that Juarez’s subsequent behavior resulted in
his incarceration and eventual deportation does not
make the advice given by his counsel constitutionally
ineffective.

App. 44
III.

Additional Contentions

Juarez goes on to argue that Tatum was required
to advise him that his guilty plea would result in lifetime inadmissibility to the United States, mandatory
detention, and destruction of the defense of cancellation of removal.4 We find no support for these arguments in the language of Padilla. Indeed, the Padilla
Court said “[i]mmigration law can be complex, and it
is a legal specialty of its own” in which “the deportation
consequences of a particular plea are [often] unclear or
uncertain.” 559 U.S. at 369. Padilla does not require
criminal defense attorneys to function as immigration
lawyers. Juarez’s arguments to the contrary expand
Padilla past any commonsense reading. See People v.
Vicente-Sontay, 2014 COA 175, ¶ 38 (“[The defendant]
cites no authority . . . nor have we seen any, requiring
counsel to advise a defendant on the particulars of cancellation of removal when the defendant’s eligibility for
such relief is unclear.”).
Because we conclude that counsel’s performance
was “within the range of competence demanded of
attorneys in criminal cases,” Strickland, 466 U.S. at
687 (quoting McMann v. Richardson, 397 U.S. 759, 771
(1970)), we need not consider whether counsel’s deficient performance prejudiced Juarez in this case.
4

We note, as did the postconviction court, that the defense
of cancellation of removal was not available to Juarez because he
was not a lawful permanent resident of the United States for five
years prior to his arrest and conviction in this case. See 8 U.S.C.
§§ 1182(a)(2), 1229b(b)(1)(C) (2012); accord People v. Vicente-Sontay,
2014 COA 175, ¶¶ 37-38.

App. 45
IV.

Conclusion

The order is affirmed.
JUDGE BOORAS and JUDGE DUNN concur.

App. 46
DISTRICT COURT
CITY & COUNTY OF
DENVER, COLORADO
520 West Colfax Avenue
Denver, Colorado 80204
THE PEOPLE OF THE
STATE OF COLORADO
Plaintiff

▲ COURT USE ONLY ▲

v.

Courtroom: 5D

Case Number: 11CR1007

ALFREDO JUAREZ
Defendant
DENIAL OF PETITION FOR
POST CONVICTION RELIEF
(Filed May 28, 2013)
THIS MATTER comes before the Court on the Defendant’s Petition for Postconviction Relief Pursuant
to Crim. P. 35(c). The Court, having considered the related submissions of the parties, the testimony and
evidence presented at the recent hearing, the related
pleadings and its file, finds and rules as follows:
Background
The Defendant is not a United States citizen but
he had been brought to this country from Mexico by his
parents when he was a small child. He has no ties to
Mexico other than being born there. He is married to
and has children with a United States citizen and he

App. 47
obtained his lawful resident status. In the present
case, he was charged with a class 6 felony for possession of a Schedule II controlled substance, cocaine. In
such regard, the police allege that they responded to a
report of a disturbance in which an intoxicated person
was fighting with family members inside a residence.
They claim that they saw the Defendant assaulting
three women inside the residence and that they eventually had to subdue the Defendant with a taser. After
the Defendant was arrested, powder cocaine was found
in the Defendant’s coin pocket and what appeared to
be cocaine was observed on the Defendant’s face,
around his nose.
The proceedings in this case were continued multiple times to permit the Defendant to explore the immigration consequences of the proposed plea bargain.
More specifically, on March 21, 2011, while still before
the County Court, the Defendant requested and was
granted a one month continuance for that purpose. On
May 19, 2011, the Defendant reported that he had consulted with an immigration attorney, Lillian Shea, but
asked for a continuance to retain a criminal defense
attorney. On June 2, 2011, John Tatum entered his appearance and the Defendant sought and was granted
another month long continuance. On July 12, 2011, the
parties reported that they had not reached a disposition and the matter was set over for an appearance
before this Court. On August 4, 2011, the Defendant
sought and was granted almost a two month continuance. On September 29, 2011, the Defendant pled not
guilty and the matter was set for disposition and a

App. 48
motions hearing. On November 3, 2011, the Defendant
requested another continuance for the express purpose
of resolving issues with an immigration attorney before deciding whether to accept a plea offer. On January 27, 2012, the Defendant again sought a
continuance of the proceedings. Finally, on February
16, 2012, the matter was scheduled for trial and the
disposition setting was put off for an additional two
months. On April 13, 2012, at the final disposition setting, the Defendant accepted the proposed plea bargain and pled guilty to a class 1 misdemeanor for
possession of a Schedule V controlled substance, pyrovalerone,1 with an agreement to a sentence of drug
court probation.
During the providency hearing, the Defendant’s
attorney, Mr. Tatum, advised the Court, in the presence
of the Defendant, that the Defendant had been told the
plea would very likely result in deportation or some
type of exclusion from the United States. Mr. Tatum
also stated that, even though the Defendant was a legal resident and had his green card, that any drug offense, other than simple possession of under an ounce
of marijuana, would have negative immigration consequences. Mr. Tatum then went on to state that he could
not tell the Defendant “any stronger” that, although
the plea was to a misdemeanor, it was the equivalent
of a felony for immigration purposes. These representations notwithstanding, the Defendant confirmed his
1

Pyrovalerone is a controlled substance for purposes of the
Immigration and Nationality Act pursuant to 21 C.F.R.
§ 1308.15(d)(1).

App. 49
desire to accept the plea bargain. The Defendant was
then immediately sentenced to drug court probation.
As discussed in more detail below, the Defendant’s
plea made him deportable. Nevertheless, deportation
proceedings were not initiated against the Defendant,
most likely because the Defendant was not placed into
custody following his plea in this matter. Instead, the
Defendant began drug court probation in May, 2012.
On May 14, 2012, the drug court imposed two days in
the Denver County Jail due to positive urinalysis tests
for THC, but suspended the two days on the condition
the level of THC dropped. On June 11, 2012, the Defendant’s THC levels apparently did not drop and the
drug court imposed the suspended jail time. On June
25, 2012, the drug court again found that the Defendant was not in compliance with his probation and,
this time, imposed three days in the Denver County
Jail. As a result of the second period of incarceration,
United States Immigration and Customs Enforcement
(ICE) placed a hold on the Defendant and began deportation proceedings. The Defendant was then deported
to Mexico.
On October 9, 2012, the Defendant filed his Petition for Postconviction Relief Pursuant to Crim.P.
35(c). The Court initially denied the Petition without a
hearing; however, after review of the Defendant’s Motion to Reconsider, the Court vacated its initial denial
and set the matter for a hearing. The matter eventually proceeded to a hearing on April 26, May 1 and May
6, 2013. The Defendant appeared, from Mexico, by
means of an audio-video internet connection. The

App. 50
Court heard testimony from the Defendant’s attorney
in the criminal proceeding, John Tatum, one of the
immigration attorneys with whom he consulted, Marshall Whitehead, and the Defendant himself.
Legal Standards
Although there is no constitutional right to postconviction review, Crim. P. 35 affords defendants this
right subject to certain limitations. People v. Weidemer,
852 P.2d 424 (Colo. 1993). The validity of the judgment
of conviction is presumed unless a defendant establishes his right to relief by a preponderance of the evidence. People v. Rodriguez, 914 P.2d 230 (Colo. 1996).
Generally, to establish a claim of ineffective assistance of counsel, a defendant must show that: (1) his
counsel’s performance fell outside the wide range of
professionally competent assistance; and, (2) the defendant was prejudiced by his counsel’s errors. Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052 (1984);
see also Silva v. People, 156 P.3d 1164 (Colo. 2007).
Where, as here, an ineffective assistance of counsel
claim arises from alleged deficient representation during the plea bargaining stage of a criminal action, to
establish Strickland prejudice, a defendant must prove
that there is a reasonable probability that, but for his
attorney’s deficient representation, he would not have
pleaded guilty and would have instead insisted on going to trial. Hill v. Lockhart, 474 U.S. 52, 106 S.Ct. 366
(1985). Because a presumption of validity attaches to
a judgment of conviction, it is the defendant’s burden

App. 51
in a Crim. P. 35(c) proceeding to prove both elements of
an ineffective assistance of counsel claim by a preponderance of the evidence. People v. Russell, 36 P.3d 92,
95 (Colo. App. 2001).
Federal statutory provisions regarding deportation
Pursuant to 8 U.S.C. § 1227(a), an alien admitted
to the United States is subject to removal by order of
the Attorney General if he is deportable. As applicable
to the present circumstance, 8 U.S.C. § 1227(a)(2)(B)(i)
provides that an alien who is convicted of a violation of
a law relating to a controlled substance, other than a
single offense involving possession for one’s own use of
30 grams or less of marijuana, is deportable.
Pursuant to 8 U.S.C. § 1182(1), aliens who are inadmissible are ineligible for admission into the United
States. Under 8 U.S.C. § 1182(a)(2)(A)(i)(II) an alien
who is convicted of a violation of a law relating to a
controlled substance is inadmissible.
Pursuant to 8 U.S.C. § 1229b(a)(1), the Attorney
General may cancel removal of an alien who is deportable or who is inadmissible if, among other requirements, the alien has been a lawful permanent resident
for at least 5 years.
Pursuant to 8 U.S.C. § 1226, an alien may be arrested and detained, upon a warrant issued by the
Attorney General, pending a decision on whether to remove the alien. In certain circumstances, the Attorney

App. 52
General may, but is not required to, release the alien
on bond. Under subsection (c)(1)(a) of this statute, however, an alien is not entitled to such a bond, even on a
discretionary basis, if he is inadmissible as a result of
having committed a violation of a law relating to a controlled substance.
Advisement of deportation consequences
An attorney’s responsibility to advise his client in
a criminal proceeding of the deportation consequences
of the client’s plea was reviewed by the Colorado Supreme Court in People v. Pozo, 746 P.2d 523 (Colo.
1987). The Colorado Supreme Court was not prepared,
at that time, to state in absolute terms that attorneys
have a duty to advise noncitizen clients of the possible
deportation consequences of a guilty plea. It did, however, find that the potential deportation consequences
of guilty pleas are material to critical phases of criminal proceedings brought against noncitizen defendants
and that, when a defense attorney is aware that his
client is not a citizen, he may reasonably be required
to investigate relevant immigration law.
Thirteen years later, the same issue arose in
Padilla v. Kentucky, 559 U.S. 356, 130 S.Ct. 1473
(2010). Therein, the United States Supreme Court
found that, under the present immigration laws, deportation is an integral part of the penalty that may be
imposed on noncitizen defendants who plead guilty to
certain crimes. In so doing, it noted that deportation is
a particularly severe penalty, even though it is not

App. 53
technically a criminal sanction. It further stated that
deportation is intimately related to the criminal process, that the law in this country has enmeshed deportation and criminal convictions for nearly a century,
and recent changes in immigration law have made deportation a nearly automatic result for many noncitizen defendants. Accordingly, the United States Supreme Court held that, under the Sixth Amendment’s
guarantee of effective representation, “counsel must
inform her client whether his plea carries a risk of
deportation.” Id., 130 S.Ct. at 1486 (emphasis added).
The Supreme Court used this precise language – “risk
of deportation” – multiple times in Padilla.
In Padilla, the defendant’s attorney misadvised2
the defendant that he was not likely to be deported.
The Supreme Court found that the provisions of 8
U.S.C. § 1227(a)(2)(B)(i), which is also the primary
statutory provision at issue in the present case, are
succinct, clear, and explicit in defining the removal consequence for a defendant’s conviction for a narcotics offense. In condemning the conduct of the defendant’s
attorney, the Court specifically noted that the attorney
could have easily determined that the plea in that case
would make the defendant “eligible for deportation”
simply by reading the text of the statute. Id., 130 S.Ct.
at 1483.

2

The standard set forth in Padilla is specifically not limited
to affirmative misadvice. Rather, it encompasses both misadvice
and failures to advise regarding the risk of deportation.

App. 54
As discussed below, although the Defendant in the
present case argues his prior counsel did not properly
advise him of the deportation consequences of his plea,
he also argues that he was not properly advised of the
impact of his plea on his future admissibility, the impact on the defense of cancellation of removal or
whether he would be subject to detention without bond
during removal proceedings. Padilla does not directly
address any of these issues. Instead, it specifically discusses an attorney’s obligation to advise a defendant of
the risk of deportation. The only obligation to advise a
defendant of the more abstract concept of immigration
consequences arises if the deportation consequences
are not clear and, in that case, all that is required is an
advisement that there may be a risk of adverse immigration consequences. See id., 130 S.Ct. at 1477. This
position is also supported by the express rationale behind the opinion. The reason noncitizen defendants
need to be advised of deportation consequences, despite the fact that they are not required to be advised
of many other possible consequences of their pleas, is
that deportation imposes a severe penalty on such individuals. Id., 130 S.Ct. at 1481. The severity of deportation, the fact that it is the equivalent of banishment
or exile, underscores how critical it is that such defendants be advised they face a risk of deportation. Id., 130
S.Ct. at 1486. Often, the right to remain in this country
is more important to such defendants than any potential jail sentence. Id., 130 S.Ct. at 1483. In fact, due to
circumstances in some defendants’ home countries,
those defendants and their families risk being killed
upon deportation. Id., 130 S.Ct. at 1484, n.11.

App. 55
Despite the fact that there is no express requirement in Padilla that other specific immigration consequences beyond deportation must be addressed by an
attorney, the opinion does reference the fact that the
Supreme Court had previously recognized, in I.N.S. v.
St. Cyr, 533 U.S. 289, 121 S.Ct. 2271. (2001), that preserving the possibility of discretionary relief from deportation would have been one of the principal benefits
sought by defendants deciding whether to accept a plea
offer and that the Supreme Court had expected attorneys would familiarize themselves with that particular form of relief. Padilla, 130 S.Ct. at 1483. That
acknowledgement, however, was made in dicta. Further, St. Cyr does not deal with the issue of effective
assistance of counsel and Padilla does not directly address whether the Sixth Amendment requires an attorney to advise his client of the impact of a plea on
possible defenses to deportation. When combined with
the United States Supreme Court’s express acknowledgment in Padilla that it must be especially careful
about recognizing new grounds for attacking the validity of guilty pleas, Id., 130 S.Ct. at 1485, these facts
suggest that the reference to the now repealed provision for discretionary relief from deportation serves
simply to note the historical awareness of the severity
of deportation, and not as a loose finding that other immigration consequences have the same status as the
risk of deportation.
A year after Padilla, an attorney’s obligation to advise a defendant about the risk of deportation came before the Colorado Court of Appeals in People v. Kazadi,

App. 56
284 P.3d 70 (Colo. App. 2011). Similarly to the situation
in the present case, the defendant in Kazadi came to
the United States as a child, had no associations with
anyone in his prior country, had a child with a United
States citizen, but was being deported after having
pled guilty to a felony drug charge as part of a deferred
judgment and having also pled guilty to a misdemeanor drug charge not involving marijuana. The defendant in Kazadi alleged that his attorney had been
ineffective in not advising him that he would become
subject to presumptive mandatory removal and permanent exclusion from the United States. The trial
court denied the defendant’s Crim.P. 35(c) motion without a hearing, finding that he was not prejudiced by his
attorney’s purported ineffectiveness because he had
read, understood, and signed a Crim. P. 11 advisement
form which told him that his plea may cause removal,
exclusion from admission to the United States or denial of naturalization and that, for certain felonies, federal statutes could require removal and permanent
exclusion. The Court of Appeals found that the Crim.
P. 11 advisement, which discussed the effect of pleading guilty to certain felony charges, did not inform the
defendant of the removal consequences of his plea to
the misdemeanor charge. Accordingly, the Court of Appeals held that the defendant was entitled to a hearing
on his Crim. P. 35(c) motion. It is of note that the defendant was also facing deportation due to his plea to
the felony charge as part of a deferred judgment, presumably under the definition of a conviction under 8
U.S.C. § 1221(48)(A). The Court of Appeals found that,
even though the defendant was facing deportation as a

App. 57
result of the felony plea, he was not entitled to relief
under Crim.P. 35(c) because judgment had not entered
on that plea.
Finally in this regard, in the recent case of People
v. Campos-Corona, ___ P.3d ___, 2013 WL 781612 (Colo.
App. 2013), the defendant was advised by his attorney
and by the trial court that his plea would likely result
in deportation and difficulty re-entering the United
States. With only minimal discussion, the Court of Appeals apparently found the advisement to be the equivalent of an advisement that the plea may carry an
adverse immigration risk, and found that the defendant had to be told, instead, that pleading guilty would
subject him to a mandatory, permanent removal provision. Campos-Corona, however, has not yet been released for publication, and it appears a petition for
certiorari in the Colorado Supreme Court is pending.
As such, the holding is not presently binding on this
Court and simply constitutes persuasive authority. Ultimately, the Court finds the holding not to be persuasive. First, the assumption that a defendant who is
deportable necessarily will be removed is factually incorrect. For the same reasons discussed below, 8 U.S.C.
§ 1227(a) would have made the defendant deportable.
The word “mandatory” does not appear in that statute.
More importantly, the position taken in CamposCorona misreads the distinction in Padilla between
advising of the risk of deportation and advising of the
possibility of adverse immigration consequences.
Padilla specifically and repeatedly states that an attorney must advise his client if a plea will carry “a risk

App. 58
of deportation.” Advising a defendant that a plea will
likely result in him being deported, advises him that
there is a risk of deportation, not simply that there
may be adverse immigration consequences.
Analysis
The Defendant was advised and was aware that
his plea carried a risk of deportation. Further, the risk
of deportation was correctly quantified as being very
likely. As such, the Court finds that the Defendant has
not established either prong of the Strickland test and
that his attorney did not provide ineffective assistance
of counsel.
The Defendant’s attorney, Mr. Tatum, knew early
on that the Defendant was a legal resident in this
country but was not a citizen. Accordingly, he had an
obligation to investigate whether the plea offer made
to the Defendant would make the Defendant eligible
for deportation. He did this by consulting with an experienced immigration attorney, Lillian Shea, as well
as the Defendant’s own immigration attorney, Mr.
Whitehead. As a result of those consultations, he had a
correct understanding that, if the Defendant accepted
the plea bargain in this case, he would likely be deported. More importantly in this case, Mr. Tatum also
advised the Defendant of this fact. Pursuant to Padilla,
Mr. Tatum’s obligation was to advise the Defendant
“whether his plea carrie[d] a risk of deportation,”
Padilla, 130 S.Ct. at 1486, and Mr. Tatum met this
obligation. Accordingly, the Court finds that the

App. 59
Defendant has not established the first prong of the
Strickland test.
The defense argues that advising the Defendant
he was likely to be deported is insufficient and that the
Defendant should have been told “his guilty plea would
trigger the automatic, mandatory and permanent removal provision of deportability.” Not only is this argument contrary to the specific language in Padilla
discussed above, it turns on an illusory distinction. To
say that someone “automatically” will be deportable, is
the same as saying he will be deportable. To say that
he “mandatorily” will be deportable, is the same as saying he will be deportable. The only thing the additional
language does is create a misleading impression of the
probability of actual deportation. As the facts in this
case demonstrate, however, it was not certain that the
Defendant would be deported. To the contrary, but for
the Defendant’s immediate and repeated problems
complying with his probation, he would not have been
placed into custody and would not likely have been deported. Further, as established by Mr. Whitehead, who
specializes in immigration law and who has forty years
of experience in that area, whether a person who is deportable will actually be deported is not absolute, certain or guaranteed. Advising someone that he will be
deportable, which is all 8 U.S.C. § 1227 states, does not
indicate how likely he is to be deported, whereas advising him that he is likely to be deported provides him
with additional, accurate information upon which he
can make a decision. Further, an advisement that he is
likely to be deported effectively encompasses his status

App. 60
under 8 U.S.C. § 1227. Stated another way, a person
must necessarily be eligible for deportation if he is
likely to be deported. Therefore, by advising the Defendant that if he took the plea offer in this case he
would likely be deported, Mr. Tatum accurately related
the effect of the plea under 8 U.S.C. § 1227(a) and also
provided additional, correct information as to the probability of deportation which was not explicit under the
statute.
It is of note that the other purported deficiencies
raised by the defense in this case fall squarely within
the concern of the dissent in Padilla of post-conviction
counsel devising “ever-expanding categories of plea-invalidating . . . failures to warn.” Padilla, 130 S.Ct. at
1496. Addressing the first of those purported failures,
there is no express requirement in Padilla that an attorney must advise a defendant whether his plea will
make him inadmissible. Although the language of
8 U.S.C. § 1182 appears to be “succinct and clear,”
Padilla, 130 S.Ct. at 1483, it is not succinct and clear
as to removal, as required by Padilla, it is succinct and
clear as to a different immigration consequence: admissibility. As noted in Justice Alito’s concurrence,
there are circumstances in which a plea can render a
defendant inadmissible but not deportable. Based
upon the majority’s discussion of the concurrence, it
appears the majority considered its holding to be sufficiently narrow in scope as to avoid such issues. For this
to be true, the ruling could not require an attorney to
affirmatively advise his client of immigration consequences other than the risk of deportation. Further,

App. 61
inadmissibility as a “penalty” resulting from a criminal
plea does not carry the same severe consequences of
deportation which justify the imposition of a special
obligation on defense attorneys which is not imposed
by numerous other significant and onerous consequences of guilty pleas.
The same analysis applies with even greater force
to the question of whether a defense attorney has an
obligation to advise a defendant whether cancellation
of removal is possible and whether bail will be available if deportation proceedings are initiated. With regard to the first issue, based upon the reference in
Padilla to St. Cyr and the fact that cancellation of deportation serves a similar function, albeit drastically
more restricted, as the repealed provision for discretionary relief from deportation, it could be argued that
the United States Supreme Court would extend a defense attorney’s obligations to also advise his client regarding the possibility of cancellation of removal. Even
if that were true, however, the nature of the plea in this
case had no direct impact on whether the Attorney
General could cancel removal for the Defendant. Instead, cancellation was not available to the Defendant
under 8 U.S.C. § 1229b(a)(1) because he had not been a
permanent resident for at least 5 years. In other words,
contrary to the Defendant’s argument, his plea did not
destroy the defense of cancellation of removal – the Defendant was never eligible for that defense. As such,
there was no such defense to preserve. Moreover, the
Padilla opinion acknowledges that immigration law is
complex and is a legal specialty of its own. The concept

App. 62
of cancellation of removal is different than the risk of
deportation in that it would require a criminal defense
attorney, who does not practice in the area of immigration law, to so familiarize himself with the procedures
of deportation proceedings as to be aware of the defense in the first instance, before he could know to
research whether it may be applicable. If defense attorneys are required to have that degree of familiarity
with immigration law, then they would presumably
also be required to understand concepts such as withholding of removal, the application of the Convention
Against Torture, and exemption from inadmissibility
for refugees. As to the issue of detention under 8 U.S.C.
§ 1226, the defense position would require an attorney
to advise a defendant of a collateral consequence to a
collateral consequence. Although pleas to certain offenses create a risk of detention throughout any subsequent removal proceedings, guilty pleas often
subject defendants to incarceration in collateral matters, including probation revocation proceedings and
habitual offender proceedings. More importantly, as
noted by the concurrence in Padilla, they can carry a
wide variety of consequences such as civil commitment, civil forfeiture, the loss of the right to vote, disqualification from public benefits, ineligibility to
possess firearms, dishonorable discharge from the
Armed Forces, and loss of business or professional licenses, yet the Sixth Amendment does not require
defense attorneys to advise their clients of such consequences and there is no reason to treat immigration
issues aside from deportation any differently.

App. 63
Even if the Court were to find that advising the
Defendant he was likely to be deported was deficient,
or that Mr. Tatum had an obligation to advise the Defendant about the effect of his plea on admissibility,
cancellation of removal or detention during deportation proceedings, the Defendant has still not proven
the second prong under the Strickland test.
The Defendant’s own testimony establishes that
he was aware the only plea that would avoid the risk
of deportation was a plea either to possession of marijuana or to a class 3 misdemeanor. In fact, the Defendant indicated that it was he who initially advised Mr.
Tatum of the risk of deportation rather than the other
way around. Understandably, the Defendant did not
want to be deported but, after numerous continuances
to try to obtain a better offer, it became apparent that
the prosecution was not willing to offer a plea to an
offense that would not carry a risk of deportation.
Knowing that the best offer he could obtain made him
eligible for deportation, the Defendant accepted that
risk and took the plea. The Defendant now claims that
if he had understood the consequences of his plea he
would have proceeded to trial,3 yet this is belied by his

3

This assertion, however, was made in response to a narrow
leading question by his attorney. When answering a related question by the prosecution, the Defendant stated that, if he had
known the other consequences of his plea, he would have said he
was not ready to make a plea, that he would have asked to delay
the proceedings further, and that he would have hired a different
attorney. As discussed in the Background section of this ruling,
by the time of the plea, the case had been set over nine times and

App. 64
actions in the case. More specifically, the Defendant believed that he would likely receive a sentence to probation whether he took the plea deal or was convicted at
trial of the original felony charge.4 He had been advised at least by Mr. Tatum and Mr. Whitehead that if
he took the plea bargain he would very likely be deported and that he would be permanently barred from
returning to the United States. Knowing these consequences, the Defendant still chose to plead guilty. From
the statements he made to his wife prior to the plea, it
appears the determinative issue was the fact that he
would avoid a felony conviction, even though the Defendant was advised before the Court that the charge
to which he was pleading would be treated the same as
a felony for immigration purposes. Although the risks
of going to trial were largely the same for immigration
purposes, the decision to accept the plea bargain was
still objectively rational. In such regard, the evidence
the Defendant had consulted with multiple attorneys. The Defendant pled guilty on the last disposition date before trial.
4
As a practical matter, this belief was potentially incorrect
in this instance. The sheer volume of cases before the Court necessarily requires it to accommodate some sentencing concessions
made as part of the prosecution’s efforts to resolve the vast majority of its cases short of trial. Absent such a circumstance, there
is usually no benefit in imposing a sentence to probation on a defendant who cannot participate in any of its programs and who
will not be subject to any supervision. This fact notwithstanding,
the Defendant’s belief was consistent with the advice given to him
by Mr. Tatum’s and that advice was reasonable based upon his
attorney’s experiences with other district courts in Colorado. The
fact that defense counsel’s assessment of the likelihood of probation in this case was possibly incorrect is irrelevant to the issues
presently before the Court.

App. 65
that the Defendant was in possession of cocaine appears to be overwhelming. Although the defense devotes significant discussion to the amount of cocaine
recovered, a measurable quantity of cocaine was recovered from the Defendant’s person and a white powder
was observed around his nose. Although the strength
of the evidence against the Defendant is not determinative of whether he would still have accepted a plea
disposition, it is strongly supportive of that fact in this
case. Further, the underlying factual allegations support Mr. Tatum’s assessment that the Defendant would
likely lose at trial. Since a felony conviction carries
greater social stigma, makes it more difficult to obtain
employment if the Defendant was not deported and
could be a possible factor impacting future actions by
ICE if the law were ever to change,5 and since the Defendant faced essentially the same risk of deportation
either way, the decision to accept a misdemeanor conviction rather than to proceed to trial is an understandable choice.
Although the Defendant was aware that his plea
would subject him to the risk of deportation at the time
of his plea, his desire to vacate that plea involves a present misapprehension of that risk. More specifically,
during his testimony, the Defendant was critical of the
fact that he was advised that he “could” be deported
due to his plea, not that he “would” be deported.
5

Both the Defendant and Mr. Tatum indicated that this issue was discussed. Further, it appears from the Defendant’s testimony that the possibility that immigration law could always
change in the future had some impact on his decision.

App. 66
Although the defense has argued strenuously that the
Defendant was not advised of an automatic consequence of his plea, that consequence was the change in
his status not actual deportation. The fact that the Defendant necessarily became deportable does not mean
that he would automatically be deported. As such, the
advice given to him, that he would likely be deported
was correct, whereas the advisement he now believes
he should have been given would have been inaccurate.
Further, since the Defendant knew that the only way
to avoid becoming deportable was to plead to a minor
marijuana charge or to a class three misdemeanor, but
chose to go ahead with a plea that would subject him
to likely deportation, the Court finds no merit in the
assertion that he would have taken a different course
of action if he had been properly advised of the risk of
deportation.
The Defendant also indicated that he would not
have taken the plea had he known that it would subject him to lifetime inadmissibility. Contrary to this assertion, based upon the testimony of Mr. Whitehead,
and to a lesser degree the testimony of Mr. Tatum, the
Court finds that the Defendant was told that, if he was
deported, he would be permanently barred from returning. The Defendant asserts, however, that this concept was not explained to him. The consequence,
however, does not require further definition. Instead,
the fact that the Defendant would be permanently
barred from returning to the United States if he was;
in fact, deported is an explanation of what it means to
be inadmissible. Since there is no reason to suspect the

App. 67
Defendant could not understand this concept, there
was no need to provide an explanation of the explanation of the concept of inadmissibility.
The Defendant also asserts that he would not have
taken the plea if he had known that he could not post
bail if removal proceedings were, in fact, initiated. The
reason for this position, however, is somewhat unclear.
The Defendant seems to suggest that the related reason is that he would not have wanted to be in custody
and that he would not have wanted to miss spending
holidays and other events with his children. The Defendant, however, continued to smoke marijuana and
failed to comply with his probation despite knowing he
would be incarcerated for doing so. Much more importantly, the only way the Defendant would be subject
to immigration detention would be if the Defendant
was in the process of being deported. Deportation was
of far greater concern to the Defendant, yet he was
willing to take the plea in this case despite the chance
that it might result in his deportation. Considering
this and all of the other related circumstances, the
Court does not find it credible that knowledge of the
fact the Defendant could not post a bond during removal proceedings would have changed his decision.
Ultimately, the Defendant’s primary desire was to
avoid deportation if he could do so. When it became
clear that the prosecution would not offer a plea which
would avoid that risk and that he would likely lose at
trial, he chose what he perceived to be his next best
option – avoiding a felony conviction. The decision was
a rational one under the circumstances. The Defendant

App. 68
was aware that a felony conviction would make it more
difficult for him to keep or obtain employment in the
event he was not deported. In fact, he would have received that benefit had he complied with his probation.
Moreover, it was pointed out to him that the present
administration appears to be immigration friendly and
it is possible that the immigration laws could change
in the future. If those laws do change and deportation
standards are to be relaxed, it is logical that they are
more likely to be eased for misdemeanor convictions
than felony convictions. Finally in this regard, it
strongly appears that the Defendant’s decision was
motivated by the hope that he might not actually be
deported even though he knew this outcome was very
likely. These circumstances also establish that risk of
detention during removal proceedings and the availability of the cancellation of removal would not have
likely had any impact on the Defendant’s decision to
accept the plea offer.
Ruling
For the reasons discussed above, the Court finds
that the Defendant has not established that his attorney counsel’s performance fell below the range of professionally competent assistance or that he was
prejudiced by any of his attorney’s purported errors.
Accordingly, the Defendant’s Petition for Postconviction Relief Pursuant to Crim. P. 35(c) is denied.

App. 69
SO ORDERED this 28th day of May, 2013
BY THE COURT:
/s/

John W. Madden
John W. Madden, IV
District Court Judge

App. 70
Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203

DATE FILED:
March 2, 2020
CASE NUMBER:
2017SC815

Certiorari to the Court
of Appeals, 2013CA1296
District Court, City and County
of Denver, 2011CR1007
Petitioner:
Alfredo Juarez,

Supreme Court Case
No: 2017SC815

v.
Respondent:
The People of the State
of Colorado

ORDER OF COURT
Upon consideration of the Petition for Rehearing
filed in the above cause, and now being sufficiently advised in the premises,
IT IS ORDERED that said Petition shall be, and
the same hereby is, DENIED.
BY THE COURT, EN BANC, MARCH 2, 2020.
JUSTICE ARQUEZ and JUSTICE GABRIEL
would grant the petition.

